July 10, 2009

DELORES J. KILLETTE
VICE PRESIDENT, CONSUMER ADVOCATE

VICE PRESIDENTS, AREA OPERATIONS

SUBJECT: Audit Report – Customer Complaints
         (Report Number MS-AR-09-009)

This report presents the results of our self-initiated audit of Customer Complaints
(Project Number 09RG002MS000). Our objective was to determine whether U.S.
Postal Service officials took appropriate actions to timely resolve customer complaints.
See Appendix A for additional information about this audit.

Conclusion

Postal Service officials closed almost all customer complaints they received in fiscal
year (FY) 2008 within the established timeframes, but they did not always take
appropriate actions to resolve the complaints.1 We projected that officials did not
resolve 50 percent of FY 2008 “Did Not Receive Mail”2 complaints. In addition, Postal
Service policies instruct employees not to close customer complaints until the customer
has been contacted with the final resolution, but they do not instruct employees on how
to handle resolved cases when customers cannot be contacted. Properly resolving
customer complaints is necessary to prevent the alienation of customers and adverse
impact to the Postal Service brand.

We will report improved customer service3 as a non-monetary impact in our Semiannual
Report to Congress.




1
  The U.S. Postal Service Office of Inspector General considered customer complaints unresolved when there was no
documentation in the case files showing actions taken to address the issues reported.
2
  Customer complaints that relate to customers not receiving mail.
3
  Initiatives aimed at expanding and improving the quality of and access to products and services that serve the entire
spectrum of the Postal Service customer base.
Customer Complaints                                                                                  MS-AR-09-009



Customer Complaints Were Closed But Not Always Resolved

Postal Service officials closed 96 percent of all customer complaints they received in
FY 2008 within the established timeframes, but they did not always resolve the
complaints. For example, Postal Service officials:

       Closed cases without contacting customers who requested return telephone
        calls.

       Instructed customers to call another post office to resolve their complaints.

       Indicated in the case files that they will investigate or address the issues but did
        not do so.

       Left voice mail messages for customers to return their calls but did not follow up
        when calls were not returned.

We projected that officials did not resolve 50 percent4 (493,185 of 992,548) of the
FY 2008 “Did Not Receive Mail” complaints.

District Consumer Affairs (DCA) officials and post office employees closed complaints
without resolving the issues, because they did not want their assigned cases to appear
on the Overdue Service Issue Record report.5 In addition, DCA officials created
customer complaint procedures that allowed local officials to do less to resolve
complaints than Headquarters Consumer Advocate’s Standard Operating Procedure
(SOP) required. For example, the procedures for the San Francisco, Portland, and
Mississippi District offices do not require employees to resolve complaints before
closure. Finally, Postal Service policies do not require management to provide
oversight by performing quality control reviews of closed cases. Failure to properly
resolve customer complaints could alienate customers and result in loss of business,
negative publicity, and adversely impact the Postal Service brand. See Appendix B for
our detailed analysis of this topic.

Handling Resolved Cases When Customers Cannot Be Contacted

Postal Service policies instruct employees not to close customer complaints until the
customer has been contacted with the final resolution. However, the policies do not
provide employees instructions regarding how to handle resolved cases when
customers cannot be contacted. Headquarters Consumer Advocate officials stated they
omitted the instructions from the SOP in error, but indicated they would incorporate
them when the SOP is revised. If guidance is not provided in this area, employees may
not know how to handle resolved cases when the customer cannot be contacted.
4
  Our projection was based on a 95 percent confidence level with a precision of 4.75 percent.
5
  The Overdue Service Issue Record report lists customer complaints that were not resolved within the established
timeframes.




                                                         2
Customer Complaints                                                            MS-AR-09-009




We recommend the Vice President, Consumer Advocate, revise the Standard Operating
Procedure to incorporate:

1. A quality control process that requires District Consumer Affairs officials to review
   closed cases to ensure they are properly resolved and documented.

2. Guidance on how District Consumer Affairs officials and post office employees
   should handle resolved complaints when customers cannot be contacted.

We recommend the Vice President, Consumer Advocate, coordinate with the Vice
Presidents, Area Operations to:

3. Reiterate the importance of complying with the headquarters customer complaints
   Standard Operating Procedure to District Consumer Affairs officials and post office
   employees.

Management’s Comments

Management agreed with our findings and recommendations, and stated they would
implement the recommendations by October 2009.

Management took exception to our statement that officials did not resolve 50 percent of
the FY 2008 “Did Not Receive Mail” complaints, asserting that they could not verify our
projection. They also disputed our statement that DCA officials and post office
employees closed complaints without resolving the issues, because they did not want
their assigned cases to appear on the Overdue Service Issue Record report.
Management believes a number of the complaints were resolved, but DCA officials and
post office employees failed to properly document the resolutions.

Management also took exception to our statement in Appendix A, Additional
Information, that despite a 4.5 percent decline in mail volume, delivery, and mail pick-
up, complaints increased more than 20 percent from FY 2007 to FY 2008.
Management noted that the number of complaints has no correlation with mail volume.
They stated that during FY 2008, the Postal Service experienced record highs in the
national on-time delivery performance of First-Class Mail®. Management also stated
that “Did Not Receive Mail” complaints vary widely and include complaints involving “No
Receipt” of mail that was never actually sent or was sent and received on a later date
than expected.




                                             3
Customer Complaints                                                          MS-AR-09-009




Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the actions taken or planned
should resolve the issues identified in the report.

Concerning our finding that 50 percent of complaints were not resolved, management
may be correct that some of these cases were resolved, but the resolution was not
documented. However, documenting the outcome is part of the resolution process.
Our statement that employees closed cases to avoid appearing on the Overdue Service
Issue Record report is based on interviews with DCA officials and post office
employees. Finally, our statement that despite a 4.5 percent decline in mail volume, the
delivery/mail pick-up complaints increased over 20 percent from FY 2007 through FY
2008, simply summarizes existing data. We did not perform work to determine whether
there is a correlation between mail volume and the number of customer complaints.

The OIG considers the three recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We will report improved customer service as a non-monetary impact in our Semiannual
Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, Director, Sales
and Service, or me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Stephen M. Kearney
    Linda J. Welch
    Katherine S. Banks




                                            4
Customer Complaints                                                                                   MS-AR-09-009



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service received approximately 2.3 million and 2 million customer
complaints in FYs 2008 and 2007, respectively. The complaints were grouped into five
categories: delivery/mail pick-up,6 personnel,7 post office/equipment,8 retail,9 and
website/contacting the Postal Service.10 In both years, delivery/mail pick-up complaints,
which comprises 13 subcategories, accounted for more than 88 percent of all
complaints. Despite a 4.5 percent decline in mail volume, this complaint category
increased more than 20 percent from FY 2007 through FY 2008. (See Table 1.)

                                Table 1: Nationwide Complaints by Category
                                                                                             Percentage
                                                                                              Changed
                                                    Number of             Number of           From FY
                                                   Complaints in          Complaints           2007 to
                     Category                        FY 2007              in FY 2008          FY 2008
          Delivery/Mail Pick-up                        1,751,138             2,103,788             20.14
          Personnel                                      144,458               147,457              2.08
          Post Office/Equipment                           52,456                56,591              7.88
          Retail                                          30,668                26,560            -13.40
          Website/Contacting the Postal
          Service                                              2,939               3,555             20.96
          Total                                           1,981,659           2,337,951              17.98
         Source: Reports Module System (RPM)

Postal Service customers initiate complaints through USPS.com, telephone calls, walk-
ins, congressional representatives, letters, and publishers.11 Headquarters and DCA
officials enter customer complaints into the Production Corporate Call Management
(PCCM)12 database using Customer Activity Response and Exchange (CARE).13
Convergys14 employees enter complaints into PCCM using Eagle One.15 Convergys
6
  Customer complaints related to mail not picked up or erroneously returned to sender.
7
  Customer complaints related to employees including postmasters.
8
  Customer complaints related to postal equipment, such as vending equipment, automated postal centers, or post
office boxes.
9
  Customer complaints within the retail area, such as problems with the retail lobby.
10
   Customer complaints related to USPS.com.
11
   Customer complaints received from publishers on behalf of their customers.
12
   A database that Corporate Customer Contact uses to support Consumer Advocate; this application is not accessed
directly by U.S. Postal Service end users.
13
   CARE is a Postal Service application that the Consumer Affairs function uses to document customer service
issues, identify problem areas, and retain customer case histories.
14
   The Postal Service entered into a xxxxxxxxxxxxxxxxx agreement with Convergys under contract number 2APSER-
03-P-2597, on February 1, 2003, for contact center support. The Convergys contract is a 4-year base contract with
six 1-year renewal options. The base contract is valued at approximately $255 million, with each 1-year renewal
option valued at approximately $64 million. Currently, the Convergys’ contract is in its second 1-year renewal period.
15
   An application owned by Convergys that allows agents to submit and track complaints.




                                                          5
Customer Complaints                                                                                MS-AR-09-009



employees are required to follow a script and to populate complaint cases using drop
down menus in Eagle One. DCA officials use the same script and drop-down menus in
CARE, but they are allowed to deviate from the script to capture as much information
about the complaints as possible. Customer complaint cases are transmitted to
managers at the post office responsible for the customer’s home address for resolution.
Convergys employees escalate customer complaints to DCA officials if the complaint
was not resolved by post office officials after two customer contacts or if the customer
believes the local office cannot resolve the complaint.

DCA officials, Postmasters, and Station Managers are required to resolve complaints
within the following time frames:

                             Table 2: Complaint Resolution
                                      Timeframes
                                                     Business
                                                      Days to
                            Complaint Mechanism       Resolve

                        USPS.com                                     2

                        Service Issue Record (SIR)16                 2

                        Congressional Inquiries                      7

                        Telephone Call                               2

                        Walk-in                                      2

                        Letter/Correspondence                       10

                        Publication Watch17                        9-36
                       Source: Postal Service Blue Pages

Postal Service policies instruct employees not to close customer complaints until the
customer has been contacted with the final resolution. Employees must also document
the actions taken to resolve the problem in the “Actions Taken” section of the complaint
case.

See Appendix D, for a flowchart of the customer complaint process.




16
   SIRs are written records of customer complaints.
17
   Magazine and newspaper companies can request delivery information for specific subscribers and the allowed
timeframes to resolve these vary based on publication frequency.




                                                        6
Customer Complaints                                                                                   MS-AR-09-009



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service officials took appropriate actions
to timely resolve customer complaints. Our scope included FY 2008 “Did Not Receive
Mail” customer complaints, which is one of 13 subcategories of Delivery/Mail Pick-Up
customer complaints. We selected the “Did Not Receive Mail” subcategory, because in
FY 2008 it represented 47 percent of the Delivery/Mail Pick-Up customer complaints.
We limited our scope to FY 2008 because the PCCM database retains customer
complaints for 1 year. We also limited our universe to 992,548 “Did Not Receive Mail”
customer complaint cases and excluded 21318 cases.

To accomplish our objective, we:

        Reviewed policies and procedures pertaining to the customer complaint handling
         process.

        Reviewed the “On Time Resolution” report19 from the Reports Module System20
         for FY 2008 to determine whether the complaints were closed timely.

        Reviewed a statistical sample of 784 “Did Not Receive Mail” customer complaint
         cases for FY 2008 to determine whether officials properly resolved them. (See
         Appendix C, for our sampling methodology.)

        Interviewed Headquarters Consumer Advocate, DCA, and post office officials to
         determine why personnel closed customer complaints without properly resolving
         or documenting actions taken to resolve them.

We conducted this performance audit from October 2008 through July 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We relied on data from the
PCCM database. We did not directly audit the system, but performed limited data
integrity tests to support our data reliance. We discussed our observations and
conclusions with management officials on May 18, 2009, and included their comments
where appropriate.


18
   We excluded these cases from our universe because they were erroneously coded under the Florida Learning
Center, which had been closed since 2004.
19
   A report that summarizes all complaints, percentage of complaints that are resolved on time, and the percentage of
overdue complaints.
20
   A web application that generates reports using data from the PCCM database. RPM produces statistical reports of
service issues for areas, districts, post offices, and consumer affairs offices.




                                                          7
Customer Complaints                                                           MS-AR-09-009



PRIOR AUDIT COVERAGE

Postal Service Contact Center Phase 1: Customer Service (Report Number MS-AR-07-
001, dated December 11, 2006). The Postal Service could not determine whether the
contact center contract improved customer service because no effective measures
existed to capture the accuracy of contact center responses to customers. In addition,
the Postal Service could reduce the costs of the contact center contract by relaxing the
current service level metric. We recommended the Postal Service: (1) continue to work
with the contractor to develop the new quality metric into an effective tool and (2) relax
the service level to 80 percent of calls answered in 60 seconds with an average speed
of answer of approximately 30 seconds. By relaxing the service level metric for the
remaining term of the contract and the 6 option years, the Postal Service could save
approximately $1.63 million. In addition, the Postal Service could have saved $570,000
if the service level metric had been relaxed 2 years ago. Management agreed with the
recommendation to implement a quality metric and completed an initiative that
addressed the issue. Management disagreed with the recommendation to relax the
service level metric, stating that further analysis was required, choosing instead to
conduct additional studies related to the service level metric. Management disagreed
with the monetary impact, because they could not validate the future cost savings.
These issues were not elevated for resolution.




                                            8
Customer Complaints                                                                                   MS-AR-09-009



                                APPENDIX B: DETAILED ANALYSIS

Customer Complaints Were Closed But Not Always Resolved

DCA and post office employees closed 96 percent of all customer complaints they
received in FY 2008 within the established timeframes, but did not always resolve the
complaints. For example, officials closed cases without contacting customers who
requested return telephone calls; after instructing customers to call another post office
to resolve their complaints; by indicating in the case files that they will investigate or
address the issues, but without doing so; or noting in complaint files that they left voice
mail messages for customers to return their calls, but did not follow up when calls were
not returned. We projected that officials did not resolve 50 percent (493,185 of
992,548) of the “Did Not Receive Mail” complaints they received in FY 2008.

DCA officials and post office employees stated they closed complaints before resolution
because they did not want their assigned cases to appear on the Overdue SIR report.
Officials also stated that there were instances where employees resolved the
complaints, but did not document the resolution in My Post Office.21

DCA officials created customer complaint procedures that were often inconsistent with
Headquarters Consumer Advocate’s SOP. Headquarters Consumer Advocate officials
created a Complaint Handling Process SOP dated January 2007, that provided
guidance to DCA officials regarding the customer complaint handling process. They
also created a partnership agreement dated July 2006 between My Post Office users
and Corporate Customer Contact.22 The partnership agreement also provided guidance
to post office employees regarding the customer complaint handling process.

DCA officials at 26 of the 80 district offices extracted sections from the SOP and the
partnership agreement and created their own procedures, because they wanted to
provide information to the field in an easier format. The procedures created by the DCA
officials were often inconsistent with either the headquarters SOP or the partnership
agreement and did not always meet the minimum requirements in the headquarters
SOP. For example, the procedures for the San Francisco, Portland, and Mississippi
District offices do not require employees to resolve complaints before closure.
Employees at the San Francisco District office can close complaints by documenting the
customer contact information and saving the case file within 2 business days.
Employees at the Portland District office could close complaints without a resolution
after 2 days. They are required to obtain final resolution within 14 days, if necessary.
The Mississippi District office procedure instructs employees to close complaints when
issues cannot be resolved by the due date. They must annotate planned actions to

21
   A web application that provides communication among all 40,000 post offices nationwide. It allows post offices to
complete work orders such as redelivery, hold mail, service issue requests.
22
   The My Post Office User and Corporate Customer Contact Partnership Agreement between Corporate Customer
Contact and users of the My Post Office web application defines the shared roles and responsibilities to be followed
to achieve quality customer service.




                                                          9
Customer Complaints                                                                                  MS-AR-09-009



resolve the complaints, close the complaint, and return to the case file to document the
final comments when the planned actions are completed. If the procedures for handling
customer complaints are not consistent, employees may not properly resolve customer
complaints.

The customer complaint procedures do not require management to provide oversight by
performing quality control reviews of closed cases. The SOP requires DCAs to survey
customers between 2 and 4 weeks after final resolution of complaints to determine
whether they were satisfied with the resolutions. DCAs are required to follow up on a
minimum of 25 resolved cases per clerk, per month using Postal Service (PS)
Form 8225, Follow-up Survey Card, or a locally generated follow-up letter/survey with
the same information contained in PS Form 8225. Survey responses must be
documented, analyzed, and shared with the appropriate managers each month. This
quality control process surveyed customers to determine whether they were satisfied
with complaints that had been resolved.23 There was no process in place to ensure that
all closed cases were properly resolved and documented.

According to the Complaint Handling Process, employees must not close complaints in
CARE until the customer has been contacted with the final resolution. The
responsibility for responding to customer complaints belongs to the post office in the
caller’s delivery area regardless of where the issue originated. The My Post Office User
and Corporate Customer Contact Partnership Agreement also requires employees to
complete a full description of the steps taken to resolve the complaints in the “Actions
Taken” section of the complaint case. Proposed actions, such as “Will talk to carrier,” or
“Will contact customer” are not appropriate entries. For customers who requested call
backs employees must make at least three attempts to contact them within 1 business
day after receiving complaints. If employees are unable to contact the customer or
leave a voicemail message, they are required to document the attempt in the “Actions
Taken” section of the complaint case and send a letter or post card to the customer to
request they contact the post office to resolve the complaint. Properly resolving
customer complaints is necessary to prevent the alienation of customers and the loss of
business, negative publicity, and adverse impact to the Postal Service brand.




23
  We did not analyze the results of these surveys because at this time the Postal Service does not have a
consolidated report on surveys conducted in the field.




                                                        10
Customer Complaints                                                                                     MS-AR-09-009



                            APPENDIX C: SAMPLING METHODOLOGY

We sampled customer complaints using cluster sampling methodology. The primary
universe consisted of the combination of Headquarters Consumer Advocate and the
80 DCA, and the three Convergys call centers (Denver, CO; Jacksonville, NC; and
Orem, UT). The secondary sample included 784 customer complaint cases. We
reviewed 196 complaint cases from the Headquarters Consumer Advocate and the
80 DCA offices cluster and 196 complaint cases from each of the three call centers. We
used two-stage attribute sampling24 to project the sampling results for each of the
4 clusters, based on a 95-percent confidence level. See Table 3 for the results of our
work.


                       Table 3: Number of Unresolved Complaints in FY 2008

                                                                                      DCA/
                               Jacksonville           Orem         Colorado        Headquarters             Total
     Number of
                                      389,651        175,812         399,234                 27,851        992,548
     Complaints Cases
     Sample Size                            196            196             196                   196               784
     Number of
     Complaints                              95            103             103                    15               316
     Unresolved
     Projected Number of
     Complaints                       188,861          92,391        209,802                  2,131        493,185
     Unresolved
     Percentage of
     Complaint Cases                     48.47          52.55           52.55                   7.65          49.69
     Unresolved




24
   Two-stage attribute sampling is a sampling technique in which the entire population is divided into groups or
clusters, and a random sample of each cluster is selected.




                                                          11
Customer Complaints                                     MS-AR-09-009



     APPENDIX D: FLOW CHART OF THE CUSTOMER COMPLAINT PROCESS




                                12
Customer Complaints                                       MS-AR-09-009



                      APPENDIX E: MANAGEMENT’S COMMENTS




                                     13
Customer Complaints        MS-AR-09-009




                      14
Customer Complaints        MS-AR-09-009




                      15
Customer Complaints              MS-AR-09-009




                      Redacted




                         16
